Audit
Report
  FINANCIAL REPORTING FOR THE OTHER DEFENSE ORGANIZATIONS -
          GENERAL FUNDS AT THE DEFENSE FINANCE AND
               ACCOUNTING SERVICE SAN ANTONIO


Report No. D-2002-038                         January 14, 2002




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASN                   Allotment Serial Number
DFAS                  Defense Finance and Accounting Service
STANFINS              Standard Finance System
                       Office of the Inspector General, DoD
Report No. D-2002-038                                                   January 14, 2002
  (Project No. D2001FA-0086.000)

          Financial Reporting for the Other Defense Organizations-
                 General Funds at the Defense Finance and
                      Accounting Service San Antonio

                                   Executive Summary

Introduction. We performed the audit in response to the Chief Financial Officers Act
of 1990, as amended by the Federal Financial Management Act of 1994, which requires
DoD and other Government agencies to prepare consolidated financial statements. The
DoD Agency-Wide financial statements include financial statements for a reporting
entity entitled “Other Defense Organizations-General Funds.” This entity represents a
consolidation of financial information from various Defense organizations and funds
that use the Treasury Index Symbol 97. Net abnormal balances reported in the
FY 2000 year-end trial balances also existed during FY 2001, and the trial balances
prepared for Department 97 funds sub-allocated to the Army reported $643.2 million of
net abnormal balances as of March 31, 2001. We audited the financial reporting
procedures that the Defense Finance and Accounting Service San Antonio and the
Defense Finance and Accounting Service Indianapolis (Sustaining Forces) used to
report on Treasury Index Symbol 97 funds sub-allocated to the Army.

Objectives. The audit objective was to determine the accuracy and completeness of the
data that the accounting offices submitted to the Defense Finance and Accounting
Service Indianapolis (Sustaining Forces) for inclusion in the FY 2001 Other Defense
Organizations Financial Statements. Specifically, we looked at the abnormal balances
reported in trial balances prepared by the Defense Finance and Accounting Service
San Antonio. In addition, we reviewed the management controls related to our
objective.

Results. Of the $643.2 million in net abnormal balances reported for Department 97
funds sub-allocated to the Army, trial balances prepared from accounting records that
the Defense Finance and Accounting Service San Antonio maintained reported
$334.3 million, or 52 percent. From the trial balances prepared by the Defense
Finance and Accounting Service San Antonio, we examined two general ledger
accounts, Funds Disbursed, and Travel and Transportation of Persons Expense. Those
two accounts represented 93.5 percent of the abnormal balances. We determined that:

      •    the Standard Finance System, as configured to process payroll transactions,
           did not post matching debits and credits to the trial balances maintained for
           individual Army medical sites;

      •    individual Army medical sites adjusted current year expense accounts to
           reduce expenses recorded in previous years; and
      •   the Defense Finance and Accounting Service San Antonio did not have
          adequate procedures in place to identify, research, and correct abnormal
          balances.

Until the Standard Finance System, a legacy accounting system, is consolidated into the
Defense Joint Accounting System in 2004, the individual balances reported in the Funds
Disbursed account for Army medical sites will be incorrect. However, the net
abnormal balances in the Funds Disbursed account should not adversely impact the
routine operations of the Army medical sites. In July 2001, the Defense Finance and
Accounting Service San Antonio changed the process for recording travel expenses,
which should reduce the possibility of reporting abnormal balances. See Appendix A
for details on the management control program.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service San Antonio, review all accounts with abnormal balances,
document the causes of those balances, provide explanations to the Defense Finance and
Accounting Service Indianapolis (Sustaining Forces) personnel responsible for
preparing the financial statements and, when possible, correct abnormal balances.

Management Comments. The Director, Defense Finance and Accounting Service,
concurred with the finding and recommendations. The Defense Finance and
Accounting Service San Antonio will work to identify and document the causes of all
abnormal general ledger account balances and provide explanations to personnel
responsible for preparing the financial statements. When possible, the Defense Finance
and Accounting Service San Antonio will correct the abnormal account balances. The
Defense Finance and Accounting Service estimates completion of all actions by
May 31, 2002. See the Finding section for a discussion of management comments, and
the Management Comments section for the text of the comments.




                                           ii
Table of Contents

Executive Summary                                                   i


Introduction
     Background                                                     1
     Objectives                                                     1

Finding
     Accuracy of Trial Balances                                    2

Appendixes
     A. Audit Process
          Scope                                                     9
          Methodology                                               9
          Management Control Program Review                        10
          Prior Coverage                                           11
      B. General Ledger Accounts with Net Abnormal Balances-DFAS
         San Antonio                                               12
     C. Report Distribution                                        13

Management Comments
     Defense Finance and Accounting Service                        15
Background

     Other Defense Organizations. The audit was performed as part of the
     continuing audit work of the Inspector General, DoD, in support of the Chief
     Financial Officers Act of 1990, as amended by the Federal Financial
     Management Act of 1994, which requires DoD and other Government agencies
     to prepare consolidated financial statements. Specifically, the DoD Agency-
     Wide financial statements include a reporting entity entitled “Other Defense
     Organizations-General Funds.” The entity represents a consolidation of
     financial information from various Defense organizations and funds that use the
     Treasury Index Symbol 97 (also referred to as Department 97). The FY 2000
     financial statements for Other Defense Organizations-General Funds included
     $3.9 billion of net abnormal balances reported in trial balances prepared by
     supporting accounting offices. The largest portion of those abnormal balances,
     $2.4 billion, was reported through the Defense Finance and Accounting Service
     (DFAS) Indianapolis (Sustaining Forces) and included funds sub-allocated to the
     Army. As of March 31, 2001, trial balances for Department 97 funds sub-
     allocated to the Army included net abnormal balances of $643.2 million. Of the
     $643.2 million, DFAS San Antonio reported the largest portion, $334.3 million.
     The abnormal balances on the FY 2000 year-end trial balances continued to
     exist during FY 2001.

     DFAS San Antonio. As a field site, DFAS San Antonio provides vendor
     payment and accounting services to both Army and Air Force organizations. As
     part of its accounting services, DFAS San Antonio posts transactions into the
     Standard Finance System (STANFINS) and uses STANFINS to prepare
     budgetary reports and general ledger trial balances. DFAS San Antonio shares
     access to STANFINS with its customers, and the customers are responsible for
     posting obligations into STANFINS. DFAS San Antonio prepares and provides
     budgetary reports and trial balances to DFAS Indianapolis (Sustaining Forces)
     personnel, who subsequently use those reports to prepare the Other Defense
     Organizations-General Funds financial statements.

     STANFINS. DFAS and the Army use STANFINS to perform basic accounting
     and reporting functions. STANFINS is an automated accounting system capable
     of producing trial balances at the site level. STANFINS is a DoD legacy system
     and, according to the DoD Financial Management Improvement Plan,
     Volume II, January 2001, STANFINS is to be consolidated into the Defense
     Joint Accounting System in July 2004. As a legacy system, funding is generally
     not available to fund changes to STANFINS.


Objectives
     The audit objective was to determine the accuracy and completeness of the data
     that accounting offices submitted to DFAS Indianapolis (Sustaining Forces) for
     inclusion in the annual financial statements. Specifically, we looked at the
     abnormal balances reported in trial balances prepared by the DFAS San Antonio
     accounting office. In addition, we reviewed DFAS San Antonio management
     controls related to our objectives. See Appendix A for a discussion of the audit
     scope, methodology, review of the management control program, and prior
     coverage related to the audit objectives.
                                        1
          Accuracy of Trial Balances
          The March 31, 2001, trial balances for Department 97 prepared from
          accounting records at DFAS San Antonio included $334.3 million of net
          abnormal balances. The condition occurred largely due to DFAS and the
          Army continuing to use the STANFINS legacy system. In addition, the
          condition occurred because:

                 •   STANFINS, as configured for processing payroll, did not
                     properly post payroll transactions to Funds Disbursed, general
                     ledger account 1012, for individual Army medical sites
                     funded by the Defense Health Program;

                 •   Army medical sites recorded downward adjustments to travel
                     expense accounts during FY 2001 to decrease expenses
                     reported in prior years; and

                 •   controls that DFAS San Antonio had in place over the
                     financial reporting process did not ensure personnel identified
                     all abnormal balances, documented the causes, and initiated
                     corrective action.

          Until STANFINS is consolidated into the Defense Joint Accounting
          System in 2004, the individual balances in general ledger account 1012
          for Army medical sites will be incorrect. However, those net abnormal
          balances should not adversely impact the routine operations of the Army
          medical sites, and the combined balance in general ledger account 1012
          for the Defense Health Program should not be misstated. During the
          audit, DFAS San Antonio made changes to the process for recording
          travel expenses, which should reduce the possibility of reporting
          abnormal balances in the future.



FY 2001 Mid-Year Trial Balances

    The March 31, 2001, trial balances for Department 97 prepared from
    accounting records that DFAS San Antonio maintained, reported $334.3 million
    of net abnormal balances in 33 general ledger accounts. See Appendix B for a
    list of the general ledger accounts with abnormal balances. We reviewed
    two general ledger accounts that totaled $312.5 million and represented
    93.5 percent of the total abnormal balances, as shown in Table 1.




                                       2
                 Table 1. DFAS San Antonio General Ledger Accounts
                    With Abnormal Balances as of March 31, 2001
                                That Were Reviewed

                                      General     Abnormal           Percent of
                                      Ledger      Balances         March 31, 2001
            Account Title             Account      (millions)   Net Abnormal Balance

       Funds Disbursed                  1012       $309.2                92.5

       Travel and Transportation
         of Persons Expense             6116           3.3                 1.0

            Total                                  $312.5                93.5


     General ledger reporting uses separate accounts to record increases and
     decreases in assets, liabilities, and equity. The normal balance for an account is
     always positive. However, if an account balance goes below $0 it becomes a
     negative balance and therefore is abnormal. An abnormal balance represents
     more decreases to an account than increases and is generally indicative of a
     reporting anomaly and requires explanation.



DFAS and Army Use of STANFINS

     DFAS and the Army continue to use STANFINS, which DoD has designated as
     a legacy system. The limitations of STANFINS largely created the abnormal
     balances we reviewed. The results of this audit reiterate the continuing need for
     DoD to replace legacy systems with systems that are fully compliant with
     generally accepted government accounting standards. According to the DoD
     Financial Management Improvement Plan, volume II, January 2001,
     STANFINS is to be replaced by the Defense Joint Accounting System in
     July 2004. However, in the interim, funding is not readily available to make
     system changes. According to DoD Memorandum, “Accelerated
     Implementation of Migration Systems, Data Standards, and Process
     Improvement,” October 13, 1993, “funding for development, modernization, or
     enhancement of legacy systems…” is limited to those changes that are essential
     to the mission of each Defense organization.



Accounting for Payroll Transactions

     Of the $334.3 million in net abnormal balances, $309.2 million was reported in
     Funds Disbursed, general ledger account 1012. STANFINS maintains trial
     balances for individual sites; however, as configured, STANFINS did not post
     matching debits and credits in each medical site’s general ledger account 1012.

                                         3
            This phenomenon was primarily limited to payroll transactions processed by
            DFAS San Antonio for Army medical sites funded by the Defense Health
            Program.

            General Ledger Account 1012. STANFINS used general ledger account 1012
            to report disbursements. For general ledger account 1012, increases are posted
            using credits; therefore, its normal balance is a credit. The account is annually
            closed into general ledger account 1013, Funds With Treasury.

            Defense Health Program. The Defense Health Program receives appropriated
            funds from the Defense Health Program appropriation (basic symbol 0130).
            The Defense Health Program is the primary allocation holder1 and sub-allocates
            funds to the Army, Navy, Air Force, and Defense agencies, who are
            sub-allocation holders. The funds sub-allocated to the Army are identified by
            limit2 1881. The Army uses those funds to finance Army medical sites, such as
            the Womack Army Hospital, Fort Bragg, North Carolina. Each individual
            medical site is assigned an allotment serial number (ASN), such as the Womack
            Army Hospital is assigned ASN 7414, which is used to track the funds, as
            shown in Figure 1.




1
    An allocation holder, or sub-allocation holder, is an organization that has received appropriated funds
    and will execute those funds.
2
    A limitation, also referred to as a limit, is a four-digit suffix to the U.S. Treasury account or basic
    symbol. It is used to identify a subdivision of funds restricting the amount or use of funds for a certain
    purpose or to identify sub-elements within an account for management purposes.

                                                        4
                          Defense Health Program Appropriation
                                  (Basic Symbol 0130)



Allocation
 Holder                          Defense Health Program
                                      (Limit 1800)
Sub-Allocation




                    Army                   Navy                   Air Force
   Holder




                 (Limit 1881)           (Limit 1882)             (Limit 1883)




                   Medical         Medical             Medical
Site




                   Site A          Site B              Site C
                 (ASN 7414)        (ASN)               (ASN)


                     Figure 1. Illustration of Funding Flow



Transactions are posted to trial balances maintained at the individual medical
site level. The abnormal balances that we reviewed in general ledger
account 1012 were reported in trial balances maintained at the site level.

Posting Payroll Disbursements. Abnormal balances in general ledger
account 1012 occurred primarily because STANFINS, as configured for
processing payroll, did not properly post disbursements to the trial balances of
individual medical sites. STANFINS posted transactions increasing general
ledger account 1012 separately to each individual medical site’s trial balance.
However, STANFINS posted transactions decreasing general ledger
account 1012 as a single transaction representing the total payroll for all
supporting medical sites to the trial balance of only one medical site. For each
payroll cycle, STANFINS selected a different medical site to receive the
decrease. Each site that received the aggregate decrease reported more
decreases than increases and, therefore, reported an abnormal balance. Due to
the age and status of STANFINS, systems support staff could not explain the
rationale for the system configuration and stated significant costs would be
required to fix the problem.

Effect on Financial Statements. When financial statements are compiled, the
trial balances for individual medical sites are combined and the debits in
one site’s trial balance should properly offset the corresponding credits in the
trial balances of other sites. We attempted to perform a transaction level

                                    5
            reconciliation but an adequate audit trail did not exist. The STANFINS support
            staff at DFAS Indianapolis (Sustaining Forces) acknowledged that STANFINS
            was limited in its capability to provide the necessary detail to perform the
            reconciliation. As a result, we could not determine the effect on the financial
            statements of the abnormal balances. Until transactions can be fully tested, we
            cannot completely rely on the balances reported in general ledger account 1012
            to correctly reflect disbursements. Because STANFINS is a legacy system,
            funding is not available to make system changes; therefore, we are not making
            system recommendations. In the interim, DFAS San Antonio should document
            the limitation of STANFINS to produce accurate balances in general ledger
            account 1012.



Accounting For Travel Expenses

            Of the $334.3 million in net abnormal balances, $3.3 million was reported in
            Travel and Transportation of Persons Expense, general ledger account 6116. At
            least $1.8 million of the abnormal balance was created because of the process
            DFAS San Antonio and its customers used to record and adjust travel expenses.
            Travel expenses were recorded in the trial balance by recording increases
            (debits) in general ledger account 6116. General ledger account 6116 is an
            expense account and is closed at the end of each fiscal year. The balance is
            transferred to Cumulative Results of Operations.

            Recording Estimated and Actual Travel Expenses. DFAS customers
            prepared travel orders for the estimated costs of travel, and used an automated
            transaction (type action code 213) that simultaneously posted an obligation,
            liability, and expense in STANFINS. After the travel was completed and a
            disbursement had been made, DFAS San Antonio personnel recorded the
            disbursement in STANFINS. Based on the amount of the disbursement,
            customers used type action code 21 with a positive or negative dollar amount to
            simultaneously increase or decrease obligations, liabilities, and expenses to
            reflect the actual cost of travel. This process had no adverse impact on
            obligations and liabilities because these accounts did not close at the end of each
            reporting period. However, expenses were recorded in an expense account that
            closed at the end of the annual reporting period. When the actual costs of travel
            were less than the estimated costs of travel, customers created a negative
            balance in general ledger account 6116 by recording a negative dollar amount in
            the current year to decrease expenses reported in a previous year. According to
            the United States Government Standard General Ledger, adjustments to
            expenses reported in a prior reporting period should be posted to the Prior
            Period Adjustments account, general ledger account 7400.

            Effect of Abnormal Balances in General Ledger Account 6116. Making
            downward adjustments to general ledger account 6116 in the current reporting
            period for expenses recorded in a previous reporting period caused an
            understatement in the expenses reported for the current reporting period.


3
    Type actions codes are system attributes that STANFINS uses to post transactions to specific general
    ledger accounts. A single type action code can generate multiple general ledger transactions.

                                                       6
    Corrective Actions Taken by DFAS San Antonio. During the audit, we
    notified DFAS San Antonio of the abnormal balances reported in general ledger
    account 6116. In response, DFAS San Antonio changed the process used to
    record travel transactions. Beginning in July 2001, DFAS San Antonio
    instructed its customers to post travel obligations using type action code 23,
    which only obligates funds. Now, when actual costs are identified, DFAS
    San Antonio posts the accrual and expense using type action code 32, which
    only records an accrual and expense. As a result of this change, travel
    expenses, when posted, will report actual costs and thereby alleviate the
    necessity of posting downward adjustments to expenses.



Financial Reporting at DFAS San Antonio

    DoD Regulation 7000.14-R, “DoD Financial Management Regulation,”
    volume 6A, “Reporting Policies and Procedures,” chapter 2, “Departmental
    Financial Reports Roles and Responsibilities,” February 1996 (with changes
    through 2001), requires DFAS to review financial reports for abnormal
    balances. DFAS San Antonio is required to identify deficiencies, initiate
    research, and when possible coordinate with Defense organizations to correct
    the deficiencies. DFAS San Antonio personnel stated that the Status of Funds
    report was reviewed for abnormal balances, but personnel did not perform a
    detailed review of the general ledger trial balances. DFAS San Antonio should
    review each quarterly trial balance provided to DFAS Indianapolis (Sustaining
    Forces) to identify all abnormal balances, initiate research, and take action to
    resolve the deficiencies.



Summary

    We only reviewed the abnormal balances in 2 of the 33 general ledger accounts
    that reported abnormal balances. The causes for abnormal balances in those
    two accounts were created because of a system limitation and because of a
    flawed business practice. The net abnormal balances reported in general ledger
    account 1012 were created because of the way STANFINS records payroll
    transactions. However, those abnormal balances do not adversely impact the
    routine operations of Army medical sites or adversely affect the combined
    balance reported for the Defense Health Program. Because DFAS San Antonio
    took action in July 2001 to reduce the possibility of recording abnormal balances
    in general ledger account 6116, the FY 2001 Statement of Net Cost will not be
    materially affected. Of the 33 general ledger accounts with abnormal balances,
    at least 10 additional expense accounts reported abnormal balances (see
    Appendix B), and may be the result of similar business process anomalies.
    Although net abnormal balances may be small dollar amounts, they represent
    cumulative financial activity and may be indicators of potentially material
    problems. Therefore, DFAS San Antonio should review remaining general
    ledger accounts to identify the cause of the abnormal balances and determine if
    those abnormal balances are due to system limitations that cannot be changed or
    due to business processes that can be changed.
                                        7
Recommendations and Management Comments

    We recommend the Director, Defense Finance and Accounting Service
    San Antonio:

    1. Initiate a review of all abnormal general ledger accounts. Determine the
    cause of those net abnormal balances, document the causes, and where
    possible correct the balances. (See Appendix B for a listing of abnormal
    balances as of March 31, 2001.)

    Management Comments. DFAS concurred. DFAS San Antonio developed
    tools to assist in identifying and reviewing abnormal balances. Additionally,
    DFAS San Antonio will work to determine the causes of the abnormal balances
    and document the causes. When possible, DFAS San Antonio will correct the
    balances. The estimated completion date is February 28, 2002.

    2. Perform routine reviews of the quarterly trial balances provided to the
    Defense Finance and Accounting Service Indianapolis (Sustaining Forces)
    to:

              a. Identify abnormal balances;

    Management Comments. DFAS concurred. DFAS San Antonio will
    implement procedures to identify abnormal balances on a quarterly basis.
    Estimated completion date is May 31, 2002.

              b. Document the cause and effect of abnormal balances and
                 explaining, as necessary, any system limitations causing the
                 abnormal balances;

    Management Comments. DFAS concurred. DFAS San Antonio will work to
    identify causes of the abnormal balances. Additionally, DFAS San Antonio will
    document any system limitations causing the abnormal balances. Estimated
    completion date is May 31, 2002.

              c. Provide explanations to the Defense Finance and Accounting
                 Service Indianapolis (Sustaining Forces) for use in preparing
                 the financial statements; and

    Management Comments. DFAS concurred. DFAS San Antonio will provide
    explanations for the abnormal balances to DFAS Indianapolis (Sustaining
    Forces) personnel responsible for preparing the financial statements. Estimated
    completion date is May 31, 2002.

              d. Correct abnormal balances generated by business process
                 anomalies.

    Management Comments. DFAS concurred. DFAS San Antonio will identify
    and correct abnormal balances generated by business process anomalies.
    Estimated completion date is May 31, 2002.



                                       8
Appendix A. Audit Process


Scope

    Financial Information, Procedures, and Controls Reviewed. We reviewed
    the procedures and related controls used by DFAS Indianapolis and DFAS
    San Antonio to prepare financial reports. We specifically focused on the
    preparation of trial balances and the transactions supporting those trial balances.
    Out of the $643.2 million in net abnormal balances reported for Department 97
    funds sub-allocated to the Army, DFAS San Antonio reported $334.3 million,
    or 52 percent. Therefore, we selected DFAS San Antonio as the site to perform
    detailed audit work. We reviewed detailed balances totaling $312.5 million in
    two general ledger accounts. We reviewed written standard operating
    procedures and trial balances for the FY 2001 reporting periods. We also
    interviewed personnel to determine how information is obtained, recorded, and
    reported in the trial balance financial reports.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the “DoD Financial Management” high-risk area.



Methodology

    Review of Abnormal Balances. We identified 33 general ledger accounts with
    $334.3 million of net abnormal balances prepared from accounting records
    maintained by DFAS San Antonio. We then identified eight general ledger
    accounts with net abnormal balances greater than $1 million, and selected two of
    the eight accounts for detailed review. We selected general ledger account 1012
    because it was the account with the largest abnormal balance, $309.2 million.
    By evaluating the procedures STANFINS used to record payroll disbursements
    in general ledger account 1012, we successfully determined the primary cause
    for the abnormal balances. We also selected general ledger account 6116 to
    review because it was the expense account with the largest abnormal balance,
    $3.3 million. We employed a business process approach to evaluate how
    STANFINS users recorded travel costs and successfully determined at least one
    major cause of the abnormal balances reported in general ledger account 6116.

    Use of Computer-Processed Data. We relied on computer-processed data
    contained in STANFINS. We obtained information on obligations,
    disbursements, accruals, and expenses. STANFINS is a DoD legacy system
    and is scheduled for consolidation into the Defense Joint Accounting System in
    July 2004. We tested the system by reviewing transactions supporting the trial
    balances. Our tests showed that, as configured for processing payroll
    transactions, STANFINS was not posting matching debits and credits to the trial


                                         9
    balances of individual medical sites. Our tests further showed that STANFINS
    users were not using type action codes that would record expense transactions in
    the proper reporting period. We did not identify further deficiencies related to
    the system.

    Audit Type, Date and Standards. We performed this financial-related audit
    from May 2001 to October 2001, at DFAS Indianapolis (Sustaining Forces),
    Indianapolis, Indiana, and DFAS San Antonio, San Antonio, Texas, in
    accordance with generally accepted government auditing standards. We
    included tests of management controls considered necessary.

    Contacts During the Audit. We visited and contacted individuals and
    organizations within the DoD. Further details are available on request.



Management Control Program Review

    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and to evaluate the adequacy
    of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS San Antonio management controls over Department 97
    financial reporting. Specifically, we reviewed the controls over the preparation
    and review of trial balances. We reviewed management’s self-evaluation
    applicable to those controls.

    Adequacy of Management Controls. We did not identify a material
    management control weakness for DFAS San Antonio as defined by DoD
    Instruction 5010.40. The abnormal balances occurred in part because of the
    way STANFINS was configured; however, because STANFINS is a legacy
    system, we did not make recommendations to change its configuration. Further,
    the abnormal balances we reviewed did not have a material effect on the
    financial statements. DoD has compiled the FY 2000 Financial Management
    Improvement Plan that designates STANFINS as a legacy system. The
    designation as a legacy system acknowledges for all users that STANFINS has
    limitations and will therefore be consolidated into the Defense Joint Accounting
    System in 2004.




                                       10
Prior Coverage

    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.




                                     11
Appendix B. General Ledger Accounts with Net
            Abnormal Balances-DFAS
            San Antonio
                                                                   General Ledger        Net Abnormal
General Ledger Account Title                                       Account Number           Balance
Funds Disbursed                                                       101200*            $309,234,265.91
Accumulated Depreciation on Assets Under Capital Lease                181900                6,792,055.41
Accounts Receivable-Public-Current                                    131300                5,422,065.23
Travel and Transportation of Persons                                  611600*               3,298,853.45
Undistributed Collections                                             101400                2,029,531.83
Accounts Receivable-Government-Current                                131100                1,836,264.15
Funds Collected                                                       101100                1,404,401.37
Other Services                                                        612000**              1,391,024.51
Equipment (Not Capitalized)                                           612200**                586,371.82
Funds with Treasury                                                   101300                  524,472.86
Supplies and Materials                                                612100**                508,954.15
Revenue from Goods Sold-Public                                        510010                  310,698.95
Cost of Goods Sold-Public                                             650010                  163,407.40
Accounts Payable-Government-Current                                   211100                  163,234.39
Personnel Compensation-Civilian                                       611100**                130,367.62
Personnel Benefits-Civilian                                           611300**                122,734.88
Unearned Revenue-Advances from the Public                             231200                  108,343.64
Grants, Subsidies, and Contributions                                  612300**                 67,305.35
Accrued Annual Leave-Civilian-Unfunded                                222100                   55,398.35
Accounts Payable-Public-Current                                       211300                   43,597.76
Refunds Receivable-Government                                         131500                   38,720.15
Revenue from Services                                                 520020                   35,112.87
Accrued Payroll-Civilian                                              221100                   32,258.13
Revenue from Services Provided-Public                                 520010                   17,269.69
Accrued Payroll-Civilian-Employer Share-Fringe Benefits               221300                    9,969.84
Personnel Compensation-Military                                       611200**                  8,042.01
Transportation of Things                                              611700**                  7,681.64
Other Interest Expenses                                               633000                    2,026.49
Rent, Communications and Utilities                                    611800**                  1,508.34
Refunds Receivable-Public                                             131600                      664.00
Printing and Reproduction                                             611900**                    217.35
Travel Advances                                                       141100                      123.84
Accrued Payroll-Military                                              221200                       22.50
   Total                                                                                 $334,346,965.88




*
    General ledger account reviewed during the audit.
**
    General ledger expense account with abnormal balance that may be the result of business process
    anomalies similar to general ledger expense account 6116.




                                                        12
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
   Director, Defense Finance and Accounting Service Indianapolis (Sustaining Forces)
   Director, Defense Finance and Accounting Service San Antonio

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs




                                           13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         14
Defense Finance and Accounting Service
Comments




                   15
16
17
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Marvin L. Peek
Sandra L. Fissel
Jonathan R. Witter
Jennifer R. Siwula
Dwayne A. Coulson
Steven E. Morrison
Lisa Rose-Pressley
